<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2000</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
             ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2000

=======================================================================

                               HEARINGS
                               BEFORE A
                          SUBCOMMITTEE OF THE
                      COMMITTEE ON APPROPRIATIONS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTH CONGRESS


                              FIRST SESSION

                                 ______



             SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT

                RON PACKARD, California, Chairman

HAROLD ROGERS, Kentucky              PETER J. VISCLOSKY, Indiana
JOE KNOLLENBERG, Michigan            CHET EDWARDS, Texas
MICHAEL P. FORBES, New York          ED PASTOR, Arizona
RODNEY P. FRELINGHUYSEN, New Jersey  JAMES E. CLYBURN, South Carolina
SONNY CALLAHAN, Alabama
TOM LATHAM, Iowa


NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full Committee, 
and Mr. Obey, as Ranking Minority Member of the Full Committee, are 
authorized to sit as Members of all Subcommittees.

     James D. Ogsbury, Jeanne L. Wilson, and Donald M. McKinnon,
                           Staff Assistants

                                 ______

                                 PART 3

                                                                  Page

Bureau of Reclamation                                                1
Testimony of the Secretary of the Interior                           1
Appalachian Regional Commission                                    755
Tennessee Valley Authority                                         831


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE

57-244                    WASHINGTON : 1999



                     COMMITTEE ON APPROPRIATIONS

                 C. W. BILL YOUNG, Florida, Chairman

RALPH REGULA, Ohio                     DAVID R. OBEY, Wisconsin
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California
FRANK R. WOLF, Virginia                STENY H. HOYER, Maryland
TOM DeLAY, Texas                       ALAN B. MOLLOHAN, West Virginia
JIM KOLBE, Arizona                     MARCY KAPTUR, Ohio
RON PACKARD, California                NANCY PELOSI, California
SONNY CALLAHAN, Alabama                PETER J. VISCLOSKY, Indiana
JAMES T. WALSH, New York               NITA M. LOWEY, New York
CHARLES H. TAYLOR, North Carolina      JOSE E. SERRANO, New York
DAVID L. HOBSON, Ohio                  ROSA L. DeLAURO, Connecticut
ERNEST J. ISTOOK, Jr., Oklahoma        JAMES P. MORAN, Virginia
HENRY BONILLA, Texas                   JOHN W. OLVER, Massachusetts
JOE KNOLLENBERG, Michigan              ED PASTOR, Arizona
DAN MILLER, Florida                    CARRIE P. MEEK, Florida
JAY DICKEY, Arkansas                   DAVID E. PRICE, North Carolina
JACK KINGSTON, Georgia                 CHET EDWARDS, Texas
RODNEY P. FRELINGHUYSEN, New Jersey    ROBERT E. ``BUD'' CRAMER, Jr.,
ROGER F. WICKER, Mississippi             Alabama
MICHAEL P. FORBES, New York            JAMES E. CLYBURN, South Carolina
GEORGE R. NETHERCUTT, Jr., Washington  MAURICE D. HINCHEY, New York
RANDY ``DUKE'' CUNNINGHAM, California  LUCILLE ROYBAL-ALLARD, California
TODD TIAHRT, Kansas                    SAM FARR, California
ZACH WAMP, Tennessee                   JESSE L. JACKSON, Jr., Illinois
TOM LATHAM, Iowa                       CAROLYN C. KILPATRICK, Michigan
ANNE M. NORTHUP, Kentucky              ALLEN BOYD, Florida
ROBERT B. ADERHOLT, Alabama
JO ANN EMERSON, Missouri
JOHN E. SUNUNU, New Hampshire
KAY GRANGER, Texas
JOHN E. PETERSON, Pennsylvania

               James W. Dyer, Clerk and Staff Director

                                 (ii)



          ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2000

                              ----------                              

                                          Thursday, March 25, 1999.

                       DEPARTMENT OF THE INTERIOR

                         BUREAU OF RECLAMATION

                               WITNESSES

HON. BRUCE BABBITT, SECRETARY, DEPARTMENT OF THE INTERIOR
PATRICIA J. BENEKE, ASSISTANT SECRETARY FOR WATER AND SCIENCE, 
    DEPARTMENT OF THE INTERIOR
ELUID L. MARTINEZ, COMMISSIONER, BUREAU OF RECLAMATION

                     Mr. Packard's Opening Remarks

    Mr. Packard. Good morning, ladies and gentlemen. We are 
extremely pleased to welcome you all to this hearing, 
especially those who are going to be our witnesses this 
morning. I can't tell you how pleased I am to see the Secretary 
here with us. We have had some very positive relationships over 
the years and had some opportunities to do things together. I 
am grateful that you have graced us with your attendance here, 
Mr. Secretary, and we are looking forward to your testimony. 
And of course, Mrs. Beneke, we are delighted to welcome you 
back; this is the first time for me with you here but not for 
the committee. And we appreciate you being here, Mr. 
Commissioner, Mr. Martinez. We welcome you and look forward to 
your testimony.
    We will hear from each of the three of you first and then 
we will open it up for questions and answers. I will yield to 
my distinguished minority leader, Mr. Visclosky, if he has any 
comments to make.
    Mr. Visclosky. Mr. Chairman, only that it is always nice to 
have a Notre Dame graduate before us. Thank you, Mr. Chairman.
    Mr. Packard. Thank you very much. Obviously, brevity is the 
theme of the day. But we are looking forward to your testimony, 
Mr. Babbitt. We hope that you will be able to review the 
programs as you see them and the budget as you have submitted 
it. We will turn the time to you.
    Secretary Babbitt. Mr. Chairman, it is a very pleasant duty 
that I have to follow you across from the Interior 
Appropriations Subcommittee.
    Mr. Packard. I have had a few subcommittees since then, as 
you may know.
    Secretary Babbitt. Let me just say that your initiative in 
southern California, working out the habitat conservation 
plans, I think really marks one of the most important 
achievements that has been really worked out in my entire 
tenure as Secretary of the Interior. I am grateful, and I look 
forward to working with you on these issues.
    I note that you are the only Californian on this entire 
committee so it should be interesting.
    Mr. Packard. Most of the rest of the members say that is a 
good thing.

                  Secretary Babbitt's Opening Remarks

    Secretary Babbitt. Mr. Chairman, I have been coming up here 
now--this is actually the 16th year that I have appeared as a 
lead witness before this committee, including seven as 
Secretary of the Interior. I thought it might be a good time, 
if you will indulge me to speak a little more broadly about 
what I believe is happening both in the Corps of Engineers and 
the Bureau of Reclamation and in water supply and management 
issues generally, because there is indeed a large and 
fundamental and largely unnoticed evolution taking place.

             Evolving Missions of the Corps and Reclamation

    Now, there are some who say, well, the Corps of Engineers 
and the Bureau are undertaking new missions. I don't think that 
is a very accurate description of what is happening. I think a 
mission of both the Bureau and the Corps is in fact evolving in 
response to many forces and many new laws. What I would like to 
do is illustrate that briefly by talking about both the Corps 
of Engineers and the Interior Department and the Bureau of 
Reclamation in two States. One is Florida; one is at the other 
end of the country, California. The point I would like to make 
for consideration by this committee is how it is we respond to 
these changes, because we are still in the business of managing 
and developing water supplies for the needs of our 
constituents.
    It has been done in a context that is very different from 
when the Bureau was established in 1902 and when the Corps of 
Engineers was established--well, I guess George Washington 
established the Corps of Engineers.

                         south florida project

    Here is what I think is happening. In Florida you are going 
to hear from the Corps of Engineers in their budget for a 
request of some $128 million in connection with a program 
called the Restudy. What is interesting about the Restudy is 
that, although you do not see it in our budget, it is a 
partnership among four or five Federal agencies in which the 
Department of Interior has now spent nearly a billion dollars 
in the last 6 years. The Corps is before you as their role 
comes up. These expenditures under what is known as the South 
Florida Project relate not to one project, not to two, not to a 
half dozen. It relates to reconfiguration of the entire 
landscape of Florida, from the outskirts of Orlando down 
through Miami, Florida Bay, and out into the Florida Keys. What 
is at stake in Florida is quite a traditional objective. It is 
the water supply for the East Coast and central Florida for the 
next 50 years.
    I never thought Florida could run out of water. I am an 
Arizonian. They get sixty inches of rain a year down there. I 
am saying, gosh, we get by on six in Arizona. But there is a 
water supply problem, and it can't be solved in traditional 
fashion with the Corps coming in with a project for you to 
scrutinize, and the way the projects have been scrutinized in 
the past. We now have a convergence of modern environmental 
laws and expectations, with urban people living side by side 
with the Everglades and side by side with the fishing industry. 
And what it means is that in order to assure that water supply, 
we have to look at the whole system and analyze and deal and 
model all of the tradeoffs.
    If Florida were to come up here and propose a water 
project, an isolated water supply project sponsored by the 
Corps or by anyone else, it would never see the light of day. 
We have Section 404. We have the Endangered Species Act. We 
have this vast panoply of laws, and the only way we can makeany 
progress is to put it all together, analyze and model the entire 
system, and say, now, who is going to need what water. What is needed 
for the Everglades? To keep Florida Bay as a fishery? To supply a 
population along the East Coast that is going to double in the next 20 
years? And the only way is to model and look at the whole thing and to 
take it all together.
    So when you see that Corps budget, one, I would obviously 
urge support, but I urge you to try to grapple with the 
question of how it is you review the whole thing, including a 
billion dollars of expenditures which have never been reviewed 
by this committee. Where are they? They are in the National 
Park Service budget. They are in the Fish and Wildlife Service 
budget. But it all comes together and people say, Well, should 
the Corps and the Bureau of Reclamation be merged? Interior and 
the Corps are already merged in Florida.
    There is no appropriation committee that sees that, but we 
are effectively merged. We have a statutory group called the 
Federal Task Force, South Florida Ecosystem Restoration Task 
Force. And there we are.

                        calfed bay-delta program

    Now, let me turn to California, because this isn't just a 
local kind of thing. You are going to see this time in the 
Reclamation budget for California a $95 million request for the 
coming year. It is not a traditional appropriation, and I would 
like to explain why.
    California has got the same problem as Florida. There is no 
way, with the laws and culture we now have, that southern 
California can solve its water problem by trying to authorize 
one more dam in the Sierra, Nevada. It will never happen. Look 
at the controversies we have had over the Auburn Dam, New 
Melones Dam, the proposed Dos Rios project on the Eel River, 
the Animas-La Plata project. A single-focus project is dead on 
arrival.
    Now, we have still got the water problem, no doubt about 
that. California is kind of like Florida. It is going from a 
population of 33 million to 50 million, certainly within 
Patty's lifetime, if not mine.
    But the question becomes how are we going to manage and 
provide that water? As in Florida, what we have done is 
acknowledge that we have got to look at the whole California 
landscape, as the whole State is connected from the Trinity 
River on the Oregon border to your district at the southern end 
of California. It is all connected, and that has led to the 
organization of what is known as CALFED. Unlike the South 
Florida Ecosystem Restoration Task Force, which was actually 
authorized under Federal law, this one was put together by 
Governor Wilson and the Clinton Administration. We are doing 
the same thing that we are in Florida, which is saying the only 
way we are going to break this deadlock is to look at the 
entire system, to get everybody together and say, ``What are we 
going to do about restoring the fisheries? How are we going to 
stay out of the clutches of a shutdown under the Endangered 
Species Act because of the failure of the salmon runs in the 
Bay-Delta? What are we going to do about agriculture?''
    California produces fifty percent of most fruits and 
vegetables for this nation. Agriculture is getting squeezed. 
They have given up trying to come up here for a separate 
project because they know they can't get it. The 
environmentalists, have veto power. Agriculture has veto power 
over the environmentalists, and urban areas have veto power 
over them, so we must get them all in a room. We have a 
partnership. As in Florida, the State is prepared to put up 
fifty percent of the money.
    California passed a statewide bond issue in 1996 of $995 
million anticipating congressional help, not as a condition of 
something being done, but just anticipating it. So here we are 
in California, in CALFED, with some really remarkable things 
happening.
    Buried in the budget request that we are making today is a 
program in which the Bureau of Reclamation is making grants, 
with your approval, to the Corps of Engineers. Now, I have got 
to tell you I never thought I would live to see the day in 
which any agency of mine would give one dime to the Corps of 
Engineers. But you ask, ``Do they need to be merged?'' We are 
already merged in California. We are doing this together 
because there is no other way. And ultimately, with your help 
and a lot of agony and chaos in this endless consensus-building 
process, we are going to get a Florida-style result. Los 
Angeles and San Diego will be happy because they will have a 
water supply. There is no other way for them to get it. They 
can't get a separate authorization. Those days are over.
    What I conclude from this is that this is, in fact, a new 
way of doing business. We have kind of drifted into it. There 
weren't any philosophers up here suggesting that the old method 
of single project, Corps-specific, Reclamation-specific, site-
specific stuff was going to give way to something else. But as 
is so often the case in this extraordinary melange of people 
and institutions and the democratic process, it is already 
underway and it is not a change of mission. It is the same 
mission 100 years later.
    It is old wine in very new bottles, and ultimately I think 
we are going to have to--Mr. Chairman and committee members, 
you are probably going to have to summon the Corps of Engineers 
and the Bureau of Reclamation and kind of skip over these 
jurisdictional lines and start looking at what people are doing 
all together. It is in that context that I come here to answer 
any questions.

                        animas-la plata project

    I do have two other things that I would like to quickly 
mention. There are a couple of specific projects that have been 
of great interest to this committee in past years. First, I 
have been sternly admonished by generations of chairs and 
committee members to do something about Animas-La Plata in 
Colorado. I believe we are really within striking distance now 
of getting that resolved. The Administration has a clear, 
unequivocal proposal on the table. We are working on that.

                        central arizona project

    Second, in Arizona, the Central Arizona Project has been 
sort of the rabbit moving through the belly of the funding 
snake over all these years, but funding for that project is now 
beginning to ramp down. We are in the midst of an historic 
negotiation in Arizona designed to settle up all of the CAP 
issues and the Indian water claims which, if we get there, 
would be a water settlement larger than all of the rest in the 
West, past and present, put together. It could have some 
significant funding implications for this committee.
    It may all fall apart. Every time we get our hopes up, you 
spend a year working on these things and then they fall apart. 
This one might go and, if so, we will probably be back 
midstream to talk about the funding implications.
    Mr. Chairman, thank you.
    [The prepared statement of Secretary Babbitt follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Packard. Thank you very much, Mr. Secretary, for that 
presentation. We are delighted to have Patricia Beneke here 
with us today. She is the Assistant Secretary of Water and 
Science, Department of Interior. We welcome you and we look 
forward to your testimony.

              Assistant Secretary Beneke's Opening Remarks

    Ms. Beneke. Mr. Chairman and members of the subcommittee, 
as always it is a pleasure to be here testifying before the 
subcommittee with respect to the Bureau of Reclamation's 
budget. I am essentially going to dispense with an opening 
statement.
    Secretary Babbitt is a tough act to follow, but as he 
mentioned, I have been very involved with both the CALFED 
Program and the Florida ecosystem restoration effort, and would 
be pleased to answer any questions you might have about those.
    Also, my office is charged by statute with implementing the 
Central Utah Project Completion Act. Again, if the committee 
has any questions about that particular project, where I will 
note that we are moving ahead with some construction, I would 
be pleased to answer your questions.
    Again, it is a privilege and honor to be here and I will 
answer your questions after Commissioner Martinez makes his 
statement. Thank you.
    [The prepared statement of Ms. Beneke and the Central Utah 
Project budget justifications follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Packard. Thank you very much. We have the testimony, 
the written statements of all three of you, and of course the 
members have had the opportunity to read it, and certainly they 
will be included in the record, so you may be assured of that. 
We are very pleased now to welcome Mr. Martinez who is the 
Commissioner of the Bureau of Reclamation. I had the privilege 
of meeting him for the first time the other day in my office. I 
appreciated that visit. I am looking forward to your testimony 
if you would like to proceed.

                Commissioner Martinez's Opening Remarks

    Mr. Martinez. Thank you, Mr. Chairman. My written testimony 
has been submitted for the record. I would like to try to 
follow up on what the Secretary had to say, but come at it from 
a different perspective. Having spent thirty-one years as a 
State water official, four years as the State Engineer in the 
State of New Mexico, the evolution of water and water resource 
development at the State level has somewhat paralleled the 
history of the evolution of the mission of the Bureau of 
Reclamation.
    Early in the history of the development of the American 
West, the States' water officials and the States were 
preoccupied with the development of their water resources that 
they had through groundwater or surface water allocation. For 
the period from 1902 through the late 1960s, State engineers 
and State water officials engaged with the Bureau of 
Reclamation principally to develop projects for the use of 
their water resources.
    In the late 1960s, State engineers across the West started 
to have to deal with new issues, issues not having to do with 
water development, but how to better utilize those water 
resources that had already been developed. State engineers and 
States had to look at not the physical appropriation of water 
but the wise use of existing water resources. The evolution of 
the Bureau of Reclamation has somewhat paralleled that change 
that has occurred across the American West, because it is a 
Bureau that has built all its projects under water rights and 
holds State permits under State law. It has to engage with the 
States and State water officials on how to best use those water 
resources that have been developed.

                             Safety of Dams

    You will see in our budget presentation before you today a 
component of our budget that has to do with making sure that 
our dams are maintained in a safe condition and that they are 
structurally sound and up to date in terms of design standards.

                       Operation and Maintenance

    Part of our budget has to do with the operation and the 
maintenance of our facilities to make sure they are adequately 
maintained, rehabilitated, and operated to deliver the benefits 
to the contractors, whether that be water or power.

                        Environmental Compliance

    A portion of our budget has to do with environmental work 
that we have to do in order to be able to comply with the 
statutes and laws dealing with environmental quality and the 
Endangered Species Act in order to be able to deliver the 
services of our projects.

                     Indian Trust Responsibilities

    You will have parts of our budget that basically have to do 
with our Indian trust responsibilities, working with the Indian 
tribes to help them to develop their water resources. Part of 
our budget goal is working with States and tribes and local 
entities in helping them develop water resources.
    So generally, I will summarize, our budget goes to 
maintaining our infrastructure, keeping it in safe condition, 
and complying with appropriate Federal and State laws and 
working with States and Indian tribes in today's environment to 
help them better manage the water resources we have developed. 
I would be glad to answer any questions you might have.
    [The prepared statement of Mr. Martinez and the Bureau of 
Reclamation budget justfications follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Packard. Thank you very much. We appreciate your 
testimony. I will be here for the entire hearing, so I am going 
to yield to my colleagues for questions first, and then I will 
be able to ask mine later. I am almost apologetic for the 
attendance here. We had almost every member of our committee 
here during the last hearing.
    Secretary Babbitt. Mr. Chairman, if I may interrupt. In my 
business in the executive branch, we view lack of attendance as 
the ultimate compliment.
    Mr. Packard. Pleased to hear that. Well, it reminds me, of 
course, that all politics is local, and with the exception of 
Mr. Visclosky, all the rest of our Minority members are from 
west of the Mississippi and considered to be from the West. The 
rest of our members, of course, verify that politics is local. 
But we are delighted to have those that are here. They are the 
ones that really matter on these western issues. I will yield 
now to Mr. Visclosky for his questions.

                               Dam Safety

    Mr. Visclosky. Thank you, Mr. Chairman. Mr. Martinez, could 
you talk a few minutes about dam safety and the number of dams 
under your jurisdiction, how you determine which dams ought to 
secure some----
    Mr. Martinez. Yes. Over 600 dams have been constructed by 
the Bureau of Reclamation. They are categorized in terms of 
their susceptibility if they fail in terms of causing loss of 
human life or loss of property. And they are rated as to 
category based upon the impact downstream of a dam failure. 
Those dams that are categorized as in that category are 
inspected on a routine basis. My understanding--and I would be 
glad to provide you information for the record--but I think it 
is once every 3 years. So we inspect every facility at least 
once every 3 years.
    [The information follows:]

                         Dam Safety Inspections

    Reclamation inspects every facility annually and conducts 
more comprehensive examinations once every 3 years and an even 
more detailed examination every 6 years. Dams that are 
identified with deficiencies receive inspection more often. 
Around the clock monitoring/inspection is performed on some 
facilities during critical times of the year.
    As Reclamation identifies those deficiencies, we move 
forward to correct those. So the budget includes a request for 
the SEED Program, which is a program to evaluate and inspect 
the dams, and, if necessary, money will be included in the 
Initiate Safety of Dams Corrective Action program to correct 
deficiencies in those dams that we identified.

    Mr. Martinez. Dams that are identified with deficiencies we 
inspect every year. Those dams that are identified as having 
deficiencies because of design standards, changes in design 
standards, or new information has come to light--for instance, 
we built a dam in an area where the earthquake standards have 
changed, or the design criteria for spillways have changed 
since the dam was built. We would operate that dam to make sure 
the spillway was adequate or buttress it in order to make sure 
it would withstand earthquake conditions and so forth. So while 
the dam itself might not have any physical problem, the design 
standards may have changed requiring improvements to the 
spillway.
    As we identify those deficiencies, we move to correct them. 
Therefore, our budget includes a request for the SEED Program, 
which is a program to evaluate and inspect the dams, and 
includes money for those dams that we identified with 
deficiencies, to correct them.
    Mr. Visclosky. And that is the $60.9 million?
    Mr. Martinez. Yes, the $60.9 million versus the $8.8 
million.
    Mr. Visclosky. What is the $8.8 million for then?
    Mr. Martinez. That is for starting the actual modification 
of dams we have identified as needing correction. Once the 
modification on the dam is initiated, then the money is 
requested under the regional budget for that particular dam. In 
other words, what will happen, the first year we start 
modification of the dam, it will show up as that $8.8 million. 
But, the subsequent year because some of these modifications 
take more than one year, they will show up in the regional 
request for that particular region and not in the dam safety 
category.

                    Central Valley Project Programs

    Mr. Visclosky. I spent four days in California earlier this 
year trying to educate myself on water policy, coming from a 
district that 14,000 years ago had been completely under water. 
And you have the Central Valley Programs and you have the 
CALFED Program. Those are two discrete functions, if you would, 
two discrete programs?
    Secretary Babbitt. Congressman, they are discrete items in 
the Federal budget, but like all the rest of this, they are in 
terms of practical application being merged togetherin this 
systemic analysis. In a nutshell, the Central Valley Project operated 
directly by the Bureau of Reclamation, was authorized back in the 1930s 
and has undergone a great deal of expansion and change. The Central 
Valley Project Improvement Act shows that in a variety of ways--it was 
1992 legislation that was designed to reconfigure the benefits of that 
project.
    Now, side by side with this is the State water project, 
which is fed from a dam up at Oroville principally. That is an 
enormous project which wraps around the Federal project and 
then delivers water on into the Los Angeles and San Diego 
metropolitan areas. Increasingly at the operational level, we 
view them as one project, as we must under the environmental 
laws and under the water delivery schedules that are very much 
mixed up. In the CALFED discussions there are proposals to join 
together the diversion points in the Delta for the two big 
canals, and then to build an intertie further south so we can 
operate them effectively as one system.
    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Packard. Thank you. Mr. Pastor from the State of 
Arizona.

                      mr. pastor's opening remarks

    Mr. Pastor. Thank you, Mr. Chairman. Welcome.
    Secretary Babbitt. By the way, your visit did not go 
unnoticed out there and there are a lot of people in California 
who are very encouraged by the amount of time you took. Ed, I 
am sorry.

                        central arizona project

    Mr. Pastor. We are going to get him also. We are going to 
get both the Chairman and the Ranking Member to Arizona 
sometime this year so they can also see the Arizona projects 
very soon.
    I have questions that I am going to submit to the record 
dealing with the CAP and the Central Arizona Water Conservation 
District. I would also like some information, so I will submit 
them for the record with the assurance that you will respond to 
them.

                        questions for the record

    Mr. Packard. If the gentleman will yield, we will have many 
questions that we will submit--not quite as many as we did to 
the Corps. For the Corps, I think there was a list of over 400 
questions. Now we didn't ask them all, but there are several 
questions we would just like to have you or your staff respond 
to for the record.

                       indian water rights issues

    Mr. Pastor. I have two more questions. Earlier you spoke 
about the efforts that you and Senator Kyl have undertaken in 
terms of trying to resolve issues with the Bureau of 
Reclamation, CAWCD, and all the interests that are involved 
with the water agreement, as well as the Native American 
settlement. I don't want to cause you to give detail that may 
cause problems to you in negotiations, but I have heard 
comments, at least back in Maricopa County, that you are giving 
all the water away to the Indians. Cities aren't happy, but 
that was several months ago.
    Could you give us just some information on what you think 
might happen? Maybe we can get prepared for the future.
    Secretary Babbitt. I would be happy to do so. There are 
hundreds of issues but there are two, I think, basic issues in 
the Arizona discussions. The first one is the Indian reserved 
water rights claims. They are substantial. They are, by the 
current measure which the Supreme Court has applied to those 
claims, certainly the largest and most solid of any of the 
western Indian water rights claims. It is a lot of water.
    The Gila River Indian Reservation has a water budget of 
653,000 acre-feet. That is a lot of water, but it is a legal 
claim. This is not a political issue. It is a legal claim, and 
the parties are busy assessing their relative positions if it 
goes to litigation, what the Supreme Court would say ten or 
fifteen or twenty years from now. I believe we have 
substantially narrowed the differences. The cities are 
basically saying we recognize that water claim and the claims 
for some of the related tribes as well, as Tucson has with the 
Tohono O'Odham. Everything comes together.
    It is just like California and Florida because in the old 
days you would say, ``This is my water and this is yours.'' You 
can't do that anymore. Everything relates, so the systems are 
interconnected; the role of the Salt River Project in wheeling 
water; how you account for groundwater use; how you project 
those budgets all under negotiation. We are fairly close.

         central arizona water conservation district litigation

    The other issue is the litigation involving the Central 
Arizona Water Conservation District. That litigation has been 
characterized by a lot of bad blood. It is really out of 
control, and our hope is that we can get both sides to a 
realistic assessment of how we might settle it.
    Now, if we settle the litigation, it will have two kinds of 
budget implications. The first one will be a possible 
compromise on the amount of remaining indebtedness. That will 
have possible implications in the Federal budget, but probably 
not before this committee. But a settlement would bring before 
this committee, I think, inevitably some substantial requests 
withrespect to the buildout of the irrigation systems for the 
Indian tribes. We have been lagging on that for 20 years. A non-Indian 
part was completed back when I was Governor, at least as far as 
Phoenix, and the Indian buildup is only beginning. We surely are going 
to have to look at ways to accelerate that.
    Mr. Pastor. What is the status of the lawsuit?
    Secretary Babbitt. The lawsuit continues. In round one, 
Judge Carroll made a ruling which the non-Indian parties view 
as favorable to them. I don't think it is all that clear on how 
big a victory it is. Judge Carroll indicated he would like to 
get moving on the rest of the lawsuit. I suspect by the end of 
this year there might be a bunch more rulings and maybe even 
additional phases of the trial on the horizon. It is a lawsuit 
that ought to be settled. It doesn't make a lot of sense for 
public agencies to be hiring legions of lawyers and fighting 
each other in the courts over their respective interrelated 
obligations to get these things completed. I know it is not 
that easy, but we are working hard on it.

                       yuma area sediment removal

    Mr. Pastor. Thank you for your efforts. I have basically 
two questions for Commissioner Martinez. First of all, before I 
ask the questions, Mr. Chairman, I would like to thank him, 
because the Bureau has been working in the Yuma area. The 
Bureau has been proactive in dredging the Colorado River around 
the Yuma area. So I want to thank him for doing that. And I 
know that we have encountered some problems very recently in 
how to dispose of the dredging spoils. And I know that you are 
working with the Corps of Engineers in trying to solve that 
problem. Could you give me an update on that?
    Mr. Martinez. We are clearing the spoil piles down by the 
Mexican border. We are trying to work with Mexico for a 
disposal site in Mexico. They offered a site, but it was kind 
of far down into Mexico, and the cost was going to be 
prohibitive. We are working with a local Indian tribe. I 
understand we are very close to entering a agreement with them 
that will allow us to use some of their land for spoil piles.
    Mr. Pastor. Also I wanted to ask you if we have any funds 
remaining in the 1999 budget to complete phase 2 of the Yuma 
East-West Wetlands Project.
    Mr. Martinez. I am not aware of the specific need there, 
but we do have some reprogramming capability and I would be 
glad to work with them on that and will provide information for 
the record.
    [The information follows:]

                Funding for Yuma East and West Wetlands

    Funding of $1.5 million provided in the FY 1999 budget was 
for the Yuma West Wetlands Project. No funds are available in 
the FY 1999 or FY 2000 budget for the Yuma East Wetlands 
Project.

    Mr. Pastor. My third question is more of a comment. We 
thank you for your support and your assistance, and as we look 
to Arizona and its problems with dredging the restoration of 
wetlands around the Yuma area, we look forward to working with 
you in the future.

                       central valley, california

    Mr. Martinez. In passing, Mr. Visclosky made a comment 
yesterday about when he visited the Central Valley portion of 
California, and I will never forget the comment you made. You 
said it is a desert out there. I said, we ought to take him to 
Arizona and New Mexico and Nevada. For us people from the West, 
the Central Valley in California is just lush.
    Mr. Packard. That is only because there is water there, and 
it wasn't there originally.
    Mr. Pastor. Thank you, Mr. Chairman.
    Mr. Packard. Thank you very much. Let's see, I believe Mr. 
Edwards is next.

                     opening remarks of mr. edwards

    Mr. Edwards. Thank you, Mr. Chairman. I am going to be 
fairly brief out of respect to you and Mr. Pastor and others on 
this committee that have a lot of Reclamation projects in their 
districts or your areas. But, Mr. Secretary, I just want to say 
first I am impressed that after all the responsibilities you 
have under your wings and the pressure you have over your 
wings, you have continued your sense of humor during this time. 
I respect that greatly. Next time I go to my district, I am 
going to remember the advice that a small crowd is good news. 
There is something to be said about that.

                          austin habitat plan

    I am not going to ask specific questions other than one 
question on one particular project. But, Mr. Secretary, I guess 
I would have to back into this, saying thatnot cutting down 
cedar takes water, and therefore I can talk to you today about the 
Golden Cheek Warbler plan in Texas. And just very briefly I would like 
to say we had a very difficult experience a couple of years ago on a 
proposed plan where Fish and Wildlife manuals told crusty old farmers--
crusty as a three-day-old piece of bread--that they ought to put bells 
around their ranch cats' necks. And if Fish and Wildlife ever tried to 
catch a ranch cat, they might understand why that was kind of accepted 
with derisiveness. What I hated about it is that it undermined those of 
us who do believe in the importance of the many programs of the Federal 
Government and of this agency.
    The good news is what eventually happened. I thought it was 
a very creative and smart idea. I think you went down to the 
Austin Fish and Wildlife office under your jurisdiction and 
developed a habitat plan where, rather than covering 
potentially 20 million acres over 33 counties, the plan 
concentrated on a small area in Austin, where I think it was 
strongly supported by most people. I wanted to bring that to 
your attention very quickly, and then I will give up my time 
after one quick question.

                   fort hood endangered species plan

    Fort Hood, the largest Army installation in the world now, 
populationwise, in my district in Central Texas, has just 
worked out a very creative plan. They brought in 
environmentalists. They brought in military leaders from Fort 
Hood. They brought in these same crusty old farmers that don't 
like any regulation of any type, and they developed a grazing 
plan that is going to help protect one or two endangered 
species of birds there at Fort Hood. Everybody came out of it 
feeling good about it, and it was a wonderful model.
    I know you deal with issues perhaps much more complicated 
than this one, but I have seen two models in my short time here 
of eight years: the first model of government coming in with a 
strong arm and a threat and terrifying people, and the second 
model of agencies and environmental groups and military and 
farmers and ranchers all working together.
    I know those kinds of changes don't happen without the 
leadership at the top working on them. So I want to thank you 
and congratulate you for that. While I don't come from a 
district where I would be listed on any environmentalist 
groups' ``Top 10'' list, this one person with a couple of 
little kiddos in diapers feels better that there will be 
national parks there someday for them because of your 
leadership. And they will be beautiful parks because of your 
leadership. I want to say thank you.
    Mr. Packard. Mr. Edwards?
    Mr. Edwards. I never say no to the Secretary.
    Secretary Babbitt. I can't resist to respond. It is not 
well known around this country that the greatest successes of 
all with the Endangered Species Act have been with the military 
who operate twenty-five million acres of land in this country. 
It is really a fascinating contrast, because when I get an idea 
and I think I understand a problem and ask my staff to execute 
it, years may go by before any visible result happens. At Fort 
Hood or Camp Pendleton, you persuade the commanding general 
that a course of action is merited, and it actually happens.
    Mr. Edwards. We dream about that kind of power.

                 camp pendleton environmental successes

    Mr. Packard. You would be interested to know, if the 
gentleman from Texas would yield, that Camp Pendleton has 
received multiple, multiple awards for environmental protection 
and restoration. Our bases generally do quite well in those 
areas.
    Secretary Babbitt. Camp Pendleton is really quite 
extraordinary. I worked personally with the General there. He 
reconfigured his amphibious exercises to stay away from certain 
areas of the beach.
    This is a story out of school, and then I will quit. I was 
out with the general and we were looking at the river that 
comes down through Camp Pendleton. He had really gotten into 
this and somebody, some biologist, started raising the issue of 
domestic cats destroying these birds' nests. It is a real 
problem, roaming cats. I talked to the general. A couple months 
later, he said, ``You know, that cat problem? I solved it. I 
banned all cats from Camp Pendleton.''
    Mr. Packard. Make it part of your daily exercise.
    Secretary Babbitt. I think we can try that in Austin, 
Texas.
    Mr. Edwards. Again, Mr. Chairman, the tie-in is that as a 
result of the creative work of the agency, they did not have to 
tell my constituents they could not cut down their cedar trees. 
With their ability to cut down cedar trees, that saved more 
water. Because of that, I am not asking for Reclamation 
projects, and Arizona and California hopefully will be the 
beneficiaries.

                cypress valley education center funding

    Mr. Martinez, could I just ask a question? And if you don't 
have an answer, you can just respond later in writing. But I am 
doing this on behalf of Congressman Sandlin from my home State 
of Texas. Three years ago, Congressman Chapman put language in 
our legislation, which became law, to reimburse Cypress Valley 
Education Center, which is located in Jefferson, Texas, in the 
amount of $430,000. Could you, either today or at some point, 
tell me why that money has not been spent in accordance with 
congressional direction?
    Mr. Martinez. I will provide that for the record and give 
you an answer to that.
    [The information follows:]

          Cypress Valley Education Center Funding (Caddo Lake)

    Congress directed Reclamation to continue the Caddo Lake 
Scholars and other wetland development components of the Caddo 
Lake Wetlands project through continuing cooperation with the 
USGS. At the beginning of FY 1997, each of Reclamation's 
partners informed us that they considered their roles in the 
initiative to be complete. It was determined that remaining FY 
1997 funds should be underfinanced due to the lack of willing 
partners in the initiative. Since FY 1997, Reclamation, along 
with partners in the initiative, have considered their roles at 
the project complete.

    Mr. Edwards. Thank you very much. Thank you, Mr. Chairman. 
Thank you, Mr. Secretary.

                         land legacy initiative

    Mr. Packard. Thank you. Mr. Secretary, in your written 
statement, you discuss the Land Legacy Initiative. It is not 
part of our subcommittee's jurisdiction, but I was curious 
nevertheless because it has such an impact upon the 
implementation and the finalization of the multiple species 
planning process that we have worked together on.
    You mentioned on page three that this is a win-win approach 
to species protection as it will provide incentives for 
landowners to protect plants and wildlife on their property and 
will accelerate the State's ability to restore a declining 
species and so forth. What kind of incentives are you talking 
about?
    Secretary Babbitt. Mr. Chairman, obviously the most basic 
incentive is the funding we would have to work with willing 
sellers. We have the resources to start. In the endangered 
species appropriations process last year, we were also given 
some money to work with landowners, particularly large 
ranchers. Wonderful examples are the King Ranch and the Kennedy 
Ranch in south Texas where we actually entered into 
conservation agreements where we would reimburse the added 
expense of managing the land in a way that was consistent with 
both, say, in that case, the cattle industry and protecting the 
endangered species.

                             calfed program

    Mr. Packard. Thank you. I would like to discuss the CALFED 
Program. In your oral statement, Mr. Secretary, you said we are 
still in the business of providing water. This refers, of 
course, to the original mission of the Bureau of Reclamation. 
In the CALFED Program we are spending somewhere in the area of 
$75 million for ecosystem restoration, and about $20 million 
for other programs, for a total of $95 million. This is a 15-
to-4 ratio between the two, and this morning you very 
eloquently, I think, outlined why ecosystems and providing 
water supply are inextricably connected. I thought you were 
very eloquent in making that point.
    But many of the participants in CALFED would like to see it 
move more from a 15-to-4 ratio to, they say, 1-to-1, which may 
not be realistic, but nevertheless they would certainly like to 
get closer to that in terms of other program projects versus 
ecosystem development and restoration.
    Is it possible to change that ratio, as time goes on and 
more and more money is spent, to a better balance between 
providing water supplies and protecting water storage and a 
variety of other issues that they are concerned about on the 
one hand, versus ecosystem restoration on the other?
    Secretary Babbitt. I think it is possible, and I think the 
ratio will change. The reason for the seeming imbalance is, as 
we moved into this consensus process, the ecosystem restoration 
side did not engender controversy. There are a number of issues 
out there, particularly fish screens in these agriculture 
areas, just as one example, where everybody is in agreement on 
exactly what needs to be done. On the water supply side, we 
have to take a little more time, and we are working toward an 
integrated storage assessment. There will never be agreement 
on, for example, raising Shasta Dam, which is now under 
consideration, in isolation. So we have to take the time on the 
front end to look at ground water storage, at the issues of 
taking water from the Sacramento Valley through the Bay, and 
the hydrologic implications of that, and it goes on and on and 
on.
    We had a lengthy and contentious meeting yesterday in 
Senator Feinstein's office with all of the usual suspects 
present--the California water agencies, the metropolitan water 
district, the agriculture people, and the environmentalists. We 
walked out of the office with the following agreement: that all 
stakeholders support that allocation between the two types of 
activities; and that I would get back into my Monday morning 
United Airlines commuter mode to Sacramento so we could sit 
down and work this out in more detail.
    Mr. Latham, I just want to acknowledge your presence.
    Mr. Packard. Delighted to have you.
    Secretary Babbitt. So, yes, it can change. It is even 
conceivable that we could be back during the course of this 
year with a reprogramming request. I think we can work it out 
in this ratio, but if we can't, I will be back to say so.

                         stakeholders' interest

    Mr. Packard. Certainly the stakeholders do have an interest 
in water efficiency, water quality, ground water storage, as 
you mentioned, and levees, conveyance and watershed areas or 
management. And I think the real concerns that many of them 
have involve the cost-sharing requirements. Federal funds being 
used, in some of their views at least, in an overbalance for 
environmental restoration projects versus these other kind that 
I just listed. Moreover, these projects tie up local moneys for 
the same purpose, because they have to share in the costs of 
the environmental restoration projects as well as those that 
deal with water quality and water management and water storage, 
et cetera. And their moneys, local moneys, are hard to come by.
    City councils and water districts and boards of supervisors 
and related agencies have to deal with the management of local 
funds in their cost-sharing match. If those funds have to go 
for environmental restoration projects, that is money that they 
don't have to match for projects that would go for providing 
water and water services. That is of concern to many of these 
interests, particularly at the local level. Not only are their 
taxpayer moneys at the Federal level being used (maybe in an 
imbalanced ratio in their judgment), but this also requires 
that their local money be used in an imbalanced ratio. And 
that's of concern.

                  draft environmental impact statement

    Secretary Babbitt. Mr. Chairman, it is a fair concern and 
we are going to work on it. Now, let me just add that by this 
summer the State and Federal agencies will have a draft 
Environmental Impact Statement out on the street. It will be 
chock-a-block full of how this program unfolds over the 20 to 
30 years. I think it is going to be very helpful because then 
you will see the entire picture.
    Mr. Packard. We will look forward to reviewing that.
    I am sorry. I knew you had came in and I just overlooked 
you again. We are delighted to have you with us, Mr. Latham, 
and we will turn the time to you.

                     Opening Remarks by Mr. Latham

    Mr. Latham. Thank you and welcome, Mr. Secretary. You have 
very good assistants with you, with Patricia there being an 
Iowan. Mr. Chairman, her father was an agricultural economist 
at Iowa State when I was in the ag business curriculum there, 
so we have known each other and she actually, I think, has some 
property up in the district, so we are very, very pleased to 
have you here.

                           loess hills study

    And we visited yesterday about the Loess Hills, and I know 
you have both been out there. There is an effortunderway to do 
a study, and we have discussed whether $150,000 would be enough to do 
the initial study, which I support very much. Would it be possible, 
with this year's funding, to do that in the Department?
    Secretary Babbitt. Mr. Latham, we are supportive of that 
effort. It is not in the President's budget, but I think after 
seven years on the job, I am entitled to depart from the script 
and say, yes, we support that. Ms. Beneke came to me about a 
year ago and said, ``Have you ever heard of the Loess Hills,'' 
and I said ``no''. She said, ``It is a really very interesting 
natural landscape;'' and I said, ``I appreciate your enthusiasm 
but I have been all over Iowa and I have yet to see a natural 
landscape.''
    Ms. Beneke. And I want to say that I responded by saying a 
lot of Iowans think that Arizona is just a great big desert.
    Secretary Babbitt. We subsequently went out there.
    Mr. Latham. It is an extraordinary place, both in terms of 
its human and cultural and historical dimension and the natural 
landscape.
    If it is possible, we should move if there is money 
available this year before getting into next year's funding.
    Ms. Beneke. In terms of being able to proceed with the 
study, Congress last year passed new legislation that requires 
a green light from Congress before a feasibility study is done. 
So the sooner that authorizing bill can get passed, the sooner 
the Park Service can get started. So I am hopeful that a bill 
could pass fairly quickly, given the broad-base support that 
the study appears to have in Iowa and mostly among the 
delegation. Any help you can give us on that would be terrific. 
Thank you.
    Mr. Latham. It is such a unique area. I think the only 
other place in the world that has that is in China, and so it 
is something we are all looking forward to.

                     mid-dakota rural water project

    This really has more to do with my colleague, Mr. Thune, 
from South Dakota. He has a real concern about the Mid-Dakota 
Rural Water Project that is currently under construction. The 
President's budget cuts the $15 million current funding down to 
$5 million in the fiscal year 2000. If that is enacted, and it 
is forced to proceed with two-thirds less, isn't that simply 
going to cost more in the long terms as far as total costs are 
concerned?
    Mr. Martinez. That is correct, and that is the issue that 
is facing most of these construction projects underway now in 
the Bureau's budget. It is not only the concern of Mid-Dakota 
but other project sponsors also. The longer it takes to build, 
the more money it costs; but it goes back to this question, 
given the limited resources that we have and you have, we must 
place priorities on those limited resources.
    Mr. Latham. So your testimony is, in fact, long term it 
will cost considerably more?
    Mr. Martinez. That is correct.

                      lewis and clark bicentennial

    Mr. Latham. Just one last question or comment. The Lewis 
and Clark Bicentennial Celebration, does not really involve 
this subcommittee but certainly it involves the Department. I 
am curious to know if you have any plans to target any 
additional resources to the sites that are significant to the 
Lewis and Clark story. Some of them have been neglected over 
time, and I would like to just hear what your plans are.
    Secretary Babbitt. Congressman, there is a great deal of 
interest and sort of ferment over the Lewis and Clark 
Bicentennial and the Missouri River. If I may, I would like to 
seize the Missouri River for a moment and go back to the points 
made in my opening statement.
    Mr. Latham. Let's not totally seize it, okay? It is scary 
when you say that.

                          missouri river basin

    Secretary Babbitt. The Missouri River Basin is another 
example of how I would answer the question, ``Should the 
Interior Department and the Corps of Engineers be merged?'' And 
the answer is, ``We already are on the Missouri River.'' It is 
a fascinating historical playout. The Missouri River Basin was 
the scene of one of the great turf wars of the 20th century, 
after the floods in the twenties, between the Bureau of 
Reclamation and the Corps of Engineers. It went on. It was 
bloody and it split the Congress right down the middle.
    The result is what is known as the Pick-Sloan Act. Mr. 
Sloan was an engineer with the Bureau of Reclamation and Mr. 
Pick was the Regional Director and later Chief Engineer of the 
Corps of Engineers. And what they did, they each had a plan 
before Congress, and in good fashion when the deadlock was 
reached, Mr. Pick and Mr. Sloan got together in a hotel room 
and said, ``Let's do both.'' And they came back, and Congress 
passed the Pick-Sloan Act, under which the Corps of Engineers 
runs the mainstem dams and the Bureau of Reclamation started 
building dams up all the tributaries. For years they were 
proceeding separately.
    The Missouri River has now got some big problems in the way 
it is managed in light of these evolving laws. The Bureau of 
Reclamation, the Fish and Wildlife Service and the Corps of 
Engineers are now working together. The stretch of the Missouri 
along the border of Iowa is particularly important; one, 
because it borders the Loess Hills and secondly, because there 
is a real question of how it should be reoperated in light of 
all of these emerging issues. I talked about earlier of 
environmental loss and fish and wildlife preservation. We are 
not quite there yet but we are working together, and I suspect 
we will be back to you in coming years.

                      lewis and clark bicentennial

    Now, let's see. Your original question was----
    Mr. Latham. Lewis and Clark.
    Secretary Babbitt. The answer is yes. It is a great time. 
The Sergeant Floyd Memorial needs a lot of attention. Lewis and 
Clark, in 2\1/2\ years out of sight and out of communication 
with civilization, lost one member of that party. He died of 
appendicitis and he is buried in the State of Iowa. It is 
really a unique place. It attracts a lot of attention and it 
needs some money and some restoration.
    Mr. Latham. It is very important, and it is something we 
are very proud of in Sioux City and Sioux land. And we 
certainly appreciate your interest in that. Thank you, Mr. 
Chairman.
    Mr. Packard. Thank you, Mr. Latham. We welcome Mr. 
Knollenberg to the hearing, and the time is yours.

                   opening remarks of mr. knollenberg

    Mr. Knollenberg. Mr. Chairman, thank you very, very much. 
Welcome, Mr. Secretary, and the assemblage that is here this 
morning. Welcome to all of you.

                    federal land purchasing program

    In your written testimony I found a reference to President 
Theodore Roosevelt and his legacy to save the best of our 
natural endowment for all time. And through his work and many 
others since, we set aside some great and wonderful national 
parks, forest, wildlife refuges and otherFederally-held lands. 
But I have a concern about the Federal Government and its expansion and 
its land purchasing program. It seems it is going quite far and very 
fast. I am concerned that we are taking too much new land when we have 
enormous maintenance backlogs in the existing Federal lands, and I am 
concerned that we may be spending money that could otherwise go towards 
our existing lands to improve them. By failing to maintain the 
standards in those existing parks, we may be putting the safety of our 
visitors at some risk and thus reducing the access to those Federal 
lands.
    And I am concerned, too, about too many land grabs that may 
be implemented for political gain and not necessarily reflect 
the best policy. To get a better sense of our land purchases, 
how many acres are currently owned by the Federal Government? 
If you don't have that and can't deliver now, I would like to 
have that answered for the record.
    Secretary Babbitt. I would be happy to do that.

                  land owned by the federal government

    Mr. Knollenberg. Here is another question. What percentage 
of land in the U.S. is owned by the U.S. Government? I am just 
talking about the raw percentage.
    And finally this question on the subject. What percentage 
of that Federally-held land is within the jurisdiction of the 
Interior Department? You can tell me this morning or you can 
answer in writing: how much more land do you intend to purchase 
for the Federal Government?
    Many people feel the Federal Government owns far too much 
land as it is. I am a sympathetic listener to those people who 
complain to me about these large Federal land purchases. The 
average family, I believe, is overtaxed at the highest tax 
levels in the history of this country--frankly, higher than 
even during World War II. And then the Federal Government turns 
around on those people and buys land.
    And I just wonder about this. How much of the land is being 
purchased from landowners who are selling the land to pay the 
tax burden? I don't seek the answer from you, but it reflects a 
concern that I have. If you can get those informational items 
for me, I would appreciate it.
    [The information follows:]

                         Federal Land Ownership

    According to the General Services Administration, as of 
September 30, 1997, the Federal Government owned 563 million 
acres of land, or about 25 percent of the total land area of 
the United States. About 90 percent of the total Federally 
owned land are ``public domain'' lands that were acquired by 
the United States between 1781 and 1867 through such actions as 
the cession of western lands by the original 13 States, the 
Louisiana Purchase, and the Alaska Purchase. The ``public 
domain'' lands remaining in Federal ownership constitute less 
than 30 percent of the 1.8 billion acres originally acquired 
through those actions.
    Bureaus in the Department of the Interior manage 445 
million acres of land. The major land managing bureaus in the 
Department are the Bureau of Land Management (BLM), the Fish 
and Wildlife Service (FWS), and the National Park Service 
(NPS).
    As to how much additional land we intend to purchase, the 
President's Lands Legacy Initiative does not approach land 
acquisition from the viewpoint of acquiring a certain number of 
acres. Instead it is aimed at protecting and restoring valuable 
natural, cultural, and historic resources.
    The Department's FY 2000 budget includes a request for $295 
million from the Land and Water Conservation Fund to acquire 
610,328 acres, which is composed of 373,868 acres for BLM, 
118,425 acres for FWS and 118,035 acres for NPS. It should be 
noted that the FY 2000 program is unusually large, due to the 
inclusion of two acquisitions involving a total of 507,426 
acres at a estimated cost of $38.5 million, an average of only 
$76/acre. Because the price of an acre of land can vary 
dramatically based on its location and market values at the 
time of acquisition, the number of acres that could be acquired 
annually in the future will vary considerably from year to 
year.

          bureau of indian affairs tribal recognition process

    Mr. Knollenberg. The other question I have really doesn't 
regard the Bureau of Reclamation, but it is one I want to raise 
about the branch of Acknowledgment and Research within the 
Bureau of Indian Affairs. I have been working with a tribe 
which is seeking Federal recognition and feels trapped by a 
process that may take decades--certainly years--to comply with, 
and we don't have to have an answer for the record today, but I 
would appreciate it if we could get together at some point to 
discuss what you are doing to make a process, which should take 
perhaps months or a year, more efficient. There should be such 
a process, and I would just like to have that conversation with 
you at some future point. But I would appreciate your response, 
and you can comment at this point, if you wish, on the tribal 
situation.
    Secretary Babbitt. Congressman, I would be happy to do so. 
The issue of Federal recognition has been contentious for many, 
many years because we are working now in areas where history 
has tended to blend cultures and bloodlines. Congress back in 
the 1970s passed quite a specific law setting up a specific 
process. The idea was we would invoke an anthropological and 
historical process of investigation. It is in fact very, very 
time-consuming because in a typical case, the affected bureau 
contracts out a great deal of historical research work and it 
can literally take years.
    I have tried to stay clear of that process because Congress 
clearly meant it to be an objective, scholarly process. It is 
long, it is frustrating. I am not sure I have a better answer, 
but I would be happy to look into the specifics of the case you 
are interested in.
    Mr. Knollenberg. In fact, let's reserve that for another 
time, but I would welcome the opportunity to meet with you on 
that issue. Thank you.

                       interior department lands

    Mr. Packard. Just for the gentleman's information, on the 
first page of the Secretary's written statement, he makes this 
observation: ``The 445 million acres of land that this 
Department manages are a source of meaningful . . .'' and so 
forth. I assume that the total amount of public lands is 
somewhere in the area of 445 million acres. That is a lot of 
land, of course.
    Mr. Visclosky.

                    opening remarks of mr. visclosky

    Mr. Visclosky. Thank you, Mr. Chairman. Mr. Secretary, in 
your opening remarks you did take the long view. You looked at 
the big picture and talked about the philosophy and the 
merging, if you would, of some of these agencies and projects.

                             calfed program

    And setting humor aside, in looking at the numbers and 
getting back again to the CALFED program, the Central Valley 
programs, it is projected that that one stateis going to have 
an increase in population that will be three times more than the 
population of the entire State I live in, and that a lot of these 
expenditures are going to be used to bring water so that people can 
live in a desert. And I know that those monies are going to be 
expended, and I don't begrudge people wanting to live in the State of 
California. But recognizing those monies are going to be spent, many of 
which are from Federal taxpayers who aren't inclined to live in the 
desert, I would want to make sure there they are spent as efficiently 
as possible.
    And looking at the CALFED program, you have your Department 
involved, obviously, with the Bureau of Reclamation, Bureau of 
Land Management, Fish and Wildlife Service, and U.S. Geological 
Survey. We have the Environmental Protection Agency involved. 
We have under the Department of Agriculture, the U.S. Forest 
Service and the Natural Resources Conservation Service. Under 
the Department of Commerce, the National Marine Fisheries 
Service. We have the U.S. Army Corps of Engineers. We have the 
Department of Energy, one with power marketing 
responsibilities.
    You also have, and I understand it is not a clear overlay, 
the Central Valley programs. Many projects within that program 
are very similar. You have the Army Corps executing other 
discrete programs in the Central Valley and a budget requesting 
43 percent more for the Central Valley. And I am wondering if 
you would comment on how this committee can ensure that monies 
for those programs are being spent as efficiently as possible; 
and, isn't there an increasing overlay of CALFED in the Central 
Valley Program?
    Secretary Babbitt. Congressman, it is a good question. Two 
thoughts. The way these funds are being spent in CALFED is 
somewhat different from the traditional process that has been 
used on Reclamation projects where money is outlayed each year 
directly by the Bureau of Reclamation. The process that is set 
up here is that appropriations in this account go to the 
Interior Department, and we then become a grantor. There are a 
lot of agencies around the government that do that. It is a new 
role in this area for the Interior Department. The reason I 
think that is necessary is because once we get an 
appropriation, we go back to what is known as the Ecosystem 
Roundtable, which reports to the Bay-Delta Advisory Committee. 
This is a very complex process in which all of the agencies sit 
down and publicly present their views on how this money should 
flow down, and once we have reached a plan and a consensus----
    Mr. Visclosky. Is this for Central Valley or is this for 
CALFED?
    Secretary Babbitt. This is CALFED. Central Valley is still, 
in fiscal terms, a traditional project, although it is a lot 
less traditional because of the Central Valley Project 
Improvement Act and the way it created a fund which is funded 
by revenues from water and power users. So, it is all kind of 
changing.
    Now, my assessment of the CALFED process is, as follows. It 
creates a big lag time, or substantial lag time, between the 
actual appropriation and expenditure because we go through this 
process, and then out of a current year appropriation make a 
multiyear grant. For example, if you are going to hire 
California Game and Fish to do a fish screen on the Sacramento 
River, you really have to view it as a project which is going 
to be forward-funded, and the money will be outlayed over 2 or 
3 years. So, it all looks very different. It is a fair subject 
of investigation. I believe the money is being expended 
efficiently. It is a very different process, and I think it 
merits your attention. I am satisfied that it is really 
working.
    Ms. Beneke. If I might add one point, and I believe one of 
the questions or part of what I am hearing in your question is 
how do we coordinate expenditures of money from the CVP 
Restoration Fund and CALFED Ecosystem Program. We explicitly 
address that through an integration panel that sits and takes a 
look at proposals under the CVP Restoration Fund and also 
CALFED to make sure that they complement each other and are not 
duplicative. We are doing everything we can to get the most out 
of every dollar that comes through both of those sources.
    Mr. Visclosky. A lot of the programs in the Central Valley 
are similar, and again you have different agencies doing 
similar programs in different areas.
    Secretary Babbitt. That is correct. They all meet in this 
roundtable process. The idea of CALFED again is the Governor 
for the State of California and the President, essentially 
through Interior as the lead agency, must sign off on all plans 
and all grants and ultimately the Environmental Impact 
Statement that is coming out this summer. The theory is by 
elevating it up to the Governor and to a lead Federal agency, 
all funds, not just from this committee but from all 
participants, such as the Environmental Protection Agency and 
other agencies, will have to be spent in an integrated manner 
because, as a condition of expenditure, they have got to go 
through this process.

                    transfer of reclamation projects

    Mr. Visclosky. One last question, Mr. Martinez, on 
Reclamation project transfers. It is my understanding that 
legislation will again be proposed to transfer a number of 
Reclamation projects. That legislation, as I understand, passed 
the House last year, and it is my understanding the 
Administration opposed it. Could you tell me why?
    Mr. Martinez. There are four particular bills or title 
transfers being considered both by the House and the Senate. 
The Wellton-Mohawk facilities in Arizona, Clear Creek in 
California, the Sly Park in California, and the Carlsbad 
Project in New Mexico. With respect to three of those bills, 
the Administration has reached an agreement in language with 
the Senate language. It has problems over the language in the 
House because the House language directs the transfer rather 
than authorizes it. The Administration's position is that you 
need to go through the NEPA analysis and studies in order to 
condition the transfer or not consummate the transfer if those 
studies indicate that it should not take place.
    There are philosophical differences in the way those bills 
are written. In the House it directs. In the Senate it says 
``shall'' transfer subject to NEPA approval.
    Mr. Visclosky. Have the customers completed their payments 
to the Federal Government in these four instances?
    Mr. Martinez. In these particular instances, I believe the 
Carlsbad Irrigation District has paid. They are seeking 
withdrawn lands that have revenue-generating capability. 
Wellton-Mohawk will be paying out and if there are still 
outstanding monies due to the Federal Government, they have to 
be prepaid back to the Federal Government before the transfer 
takes place.
    Mr. Visclosky. If those are prepaid, what would the 
impediment then be for the transfer?
    Mr. Martinez. When you try to move these transfers forward, 
there are a lot of folks that have concerns about the transfer, 
the environmental implications, the recreation implications, 
and other issues.
    Mr. Visclosky. How would the local sponsor continue to run 
the program?
    Mr. Martinez. There are some groups out there who believe 
that once it is turned into private hands, they might have a 
different way of operating the project to the detriment of some 
of the benefits of the project. These are issues that have to 
be worked out during this negotiation and NEPA process.

                             wellton-mohawk

    Secretary Babbitt. Congressman, let me, if I may, give you 
a specific example. These things are so entangled in subsidies 
and fiscal arrangements that even the issue of prepaying is 
really tough. They are just a great tangle of issues. But let 
me finish with one example. The Wellton-Mohawk District is 
connected by what is known as a tile drain that takes the 
runoff water from the Wellton-Mohawk across the border into 
Mexico down to a place called the Santa Clara Slough. It is a 
convoluted arrangement which was executed by the Bureau of 
Reclamation in order to satisfy the water quality assurances 
that were given under the Mexican Treaty of 1944.
    This water is now viewed by the Mexicans, which is in a 
separate canal all the way across the border, as deeply wrapped 
up in their analysis of needs and their management of the 
Delta. If we were to just walk away from Wellton-Mohawk cold 
turkey, we would have a big problem with the Mexican 
government.

                  reclamation project title transfers

    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Martinez. Going back if I may, the Administration 
supports the title transfer of all of these initiatives. We 
have reached language agreement of the Senate version of the 
bills. We have some concerns with the House version.
    Mr. Packard. I would like to wrap the hearing up. We have a 
series of votes, and I do not wish to make the witnesses wait. 
We could come back if you have further questions.
    Mr. Edwards. No, Mr. Chairman.

                      fish and wildlife activities

    Mr. Packard. One question. I will ask for a very short 
answer. There are several questions on fish and wildlife 
activities, but we will just have you respond to those for the 
record.

                           consultation time

    But I would like to ask about consultation time. The 
Committee has been told that there is a charge imposed on power 
customers to consult with the Bureau. I have not heard of this 
being done before in other agencies. If it is true, I would 
like to know how it is done, how you determine the assessments 
or the charges, how they are scored as revenue, and so forth. 
Is there a charge for consultation time when your employees 
consult with power and water customers that come to you?
    Mr. Martinez. There are charges that are charged against 
the project beneficiaries for work that the Bureau of 
Reclamation does. I will get back to you specifically on that 
particular issue.
    [The information follows:]

                           Consultation time

    When water and power customers meet with Reclamation staff 
to discuss operation and maintenance on a specific Project, 
Reclamation staff cost for participation in such a meeting is 
charged to that Project. To the extent these costs are 
allocated to reimbursable project purposes, then water and 
power customers must, by law, repay them. If a meeting is held 
with customers concerning recreational activities and fish and 
wildlife matters associated with a given Project, Reclamation 
staff cost would also be charged to that Project. Our customers 
do not pay for these costs when they are associated with non-
reimburseable activities.
    We do not know at this time how widespread the practice of 
charging customers for staff time at O&M meetings is at other 
Federal agencies. However, we are aware that the U.S. Corps of 
Engineers does have projects where at least a portion of the 
cost for O&M meetings are charged to their customers much the 
same as described in our example above.

    Mr. Packard. I would appreciate it. And let us know if you 
are aware of other agencies of government doing it, and how it 
is scored as far as revenue, and where the money goes, and how 
the charge is determined. And tell us if you have detected any 
chilling effect that it might have on agencies or other 
customers coming to consult with the Bureau--if these charges 
discourage them from coming.
    Mr. Martinez. Mr. Chairman, I am aware that some of our 
customers are concerned about the overhead costs that the 
Bureau of Reclamation has. We have put a policy in place where 
we are now consulting with the customers as we prepare our 
budgets and prepare our program efforts to try to keep that 
cost down.
    Mr. Packard. I have not heard of it being done before and I 
would be interested in just how it is operating. Do you have 
anything further? Again, there will be several questions for 
the record that we hope you will be able to respond to.

                    Closing Statement of Mr. Packard

    Mr. Packard. We thank you very, very much for appearing, 
for your answers to questions, and for your testimony. And if 
there is nothing further that you wish to add, Mr. Secretary, 
or any of the others, then we will adjourn the hearing. Thank 
you very much.
    [The questions and answers follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                           W I T N E S S E S

                              ----------                              
                                                                   Page
Babbitt, Hon. Bruce..............................................     1
Beneke, P.J......................................................     1
Martinez, E.L....................................................     1
Underwood, C.H...................................................   765
White, J.L., Jr..................................................   755


                               I N D E X

                              ----------                              

                         BUREAU OF RECLAMATION

                                                                   Page
Animas-La Plata Project..........................................5, 741
Annual Performance Plan FY 2000.................................29, 580
    Appendix A...................................................   658
Ashley/Brush Creeks..............................................   745
Austin Habitat Plan..............................................   663
Babbitt, Secretary Bruce, Opening Remarks........................     2
Babbitt, Secretary Bruce, Statement..............................     6
Beneke, Assistant Secretary Patricia J., Opening Remarks.........    12
Beneke, Assistant Secretary Patricia J., Statement...............    13
Budget Increases.................................................   677
Budget Justifications for FY 2000 for Bureau of Reclamation......    33
    Index........................................................   565
Bonneville Unit, Central Utah Project............................   743
CALFED Bay--Delta Program...............................3, 14, 666, 672
California Bay--Delta Ecosystem Restoration.....................31, 701
California Investigations Program................................   734
Camp Pendleton Environmental Successes...........................   664
Carryover Funding in FY 2000.....................................   688
Central Arizona Project....................................15, 661, 729
Central Arizona Water Conservation District Litigation...........   662
Central Utah Project....................................11, 15, 17, 751
Central Valley Project Programs................................660, 663
Central Valley Project, American River Division..................   735
Central Valley Project, Delta Division...........................   736
Central Valley Project, Friant Division..........................   737
Central Valley Project, Restoration Fund........................31, 706
Central Valley Project, San Felipe Division......................   737
Central Valley Project, Trinity River Division...................   738
Colorado River Storage Project, Section 8........................   743
Columbia Basin Project...........................................   714
Columbia and Snake River Salmon Recovery Project.................   709
Consultation Time..............................................675, 695
CVP Yield Feasibility Investigation..............................   740
Cypress Valley Education Center Funding..........................   665
Dakota Investigations............................................   724
Dakota Tribes Investigations Program.............................   725
Dam Safety..................................................26, 29, 659
Denver Administrative Service Center.............................   708
Deschutes Ecosystem Resorption Project...........................   716
Draft Environmental Impact Statement.............................   667
Drought Emergency Assistance.....................................   746
Ecosystem Restoration............................................     8
Edwards, Honorable Chet..........................................   663
Efficiency Incentives Program....................................   747
Emergency Planning and Disaster Response Program.................   745
Endangered Species Recovery Implementation.......................   719
Evolving Missions of the Corps and Reclamation...................     2
Federal Building Seismic Safety Program..........................   748
Fish and Wildlife Activities..............................675, 692, 733
Fish and Wildlife Biological Opinion.............................   694
Fort Hood Endangered Species Plan................................   664
Fryingpan-Arkansas Project.......................................   727
General Planning Studies.........................................   749
Geographically Defined Programs..................................   689
Grande Ronde Water Optimization Study............................   720
Idaho Investigations Program.....................................   721
Indian Trust Responsibilities....................................    27
Indian Water Rights Issues.......................................   661
Irrigation Subsidy Reduction Act.................................   685
Knollenberg, Honorable Joe.......................................   670
Land, Federal Purchase Program...................................   670
Land Legacy Initiative...........................................8, 665
Latham, Honorable Tom............................................   667
Lewis and Clark Bicentennial.....................................   669
Loan Program....................................................31, 705
Loess Hills Study................................................   668
Lower Colorado River Operations Program..........................   732
Malheur/Owyhee/Power/Burnt River Basins Water Optimization Study.   723
Martinez, Commissioner Eluid, Opening Remarks....................    26
Martinez, Commissioner Eluid, Statement..........................    28
Mid-Dakota Rural Water Project.................................668, 728
Middle Rio Grande Project........................................   744
Minidoka Northside Drain Water Management Project................   724
Mini Wiconi......................................................   753
Mission Evolving.................................................     2
Missouri River Basin.............................................   669
Montana Investigations Program...................................   724
New Investigations or Projects...................................   690
Ogden River Basin................................................   744
Ongoing Studies..................................................   691
    Rio Puerco Watershed Sedimentation & Water Quality Study
    Bear River Interstate Water Supply Study
    Utah Lake Water Management Study
    Spring Canyon Pumped Storage Project Study
    Folsom Dam Traffic Study
    Rapid City Wastewater Reuse Study
Operation and Maintenance........................................   697
Packard, Honorable Ron, Opening Remarks..........................     1
Packard, Honorable Ron, Questions................................   677
Parker-Davis Project Operation and Maintenance...................   696
Pastor, Honorable Ed.............................................   660
Policy and Administration........................................    31
Prior Year Funds.................................................   687
Project Transfers..............................................675, 683
Rocky Boys Indian Water Rights Settlement........................   728
Safety of Dams..............................................26, 29, 659
Safety of Dams Program...........................................   750
South Florida Project............................................     2
Southern California Comprehensive Water Supply and Reclamation 
  Study..........................................................   733
Southern New Mexico/West Texas Investigations Program............   745
Southern Utah Investigations Program.............................   746
Stakeholders' Interest...........................................   667
Title XVI Water Reclamation and Reuse Program....................   700
Title Transfers................................................675, 683
Total Estimated Cost Increases...................................   679
Transfer of Reclamation Projects.................................   674
Tribal Recognition by BIA........................................   671
Underfinancing...................................................   686
Visclosky, Honorable Peter J.....................................   672
Water and Related Resources...........................30, 678, 685, 689
Water Management and Conservation Program........................   750
Wellton-Mohawk...................................................   674
Working Capital Fund.............................................   706
Yuma Area Sediment Removal.......................................   662

                    APPALACHIAN REGIONAL COMMISSION

Appalachian Regional Development Program.........................   779
Budget Estimates, Table of Contents..............................   769
    Appendix A...................................................   810
    Appendix B...................................................   825
General Statement and Summary....................................   771
Salaries and Expenses............................................   804
Summary of Appropriation and Budget Request......................   770
Underwood, Governor of West Virginia, Cecil H., Statement........   765
White, Jesse L., Jr., Statement..................................   755

                       TENNESSEE VALLEY AUTHORITY

Annual Performance Plan..........................................   865
Budget Program...................................................   831
    Table of Contents............................................   831
Cost Category Schedule...........................................   836
Economic Development.............................................   851
Employment Summary...............................................   836
Environmental Research Center....................................   854
Highlights of 2000 Budget Program................................   833
Introduction.....................................................   832
Land Between the Lakes National Recreation Area..................   837
Summary of Budget................................................   834
TVA Power Program................................................   857
Water and Land Stewardship.......................................   847

                                <greek-d>

</pre></body></html>
